OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/EGYPT’S
DEMOCRACY AND
GOVERNANCE ACTIVITIES
AUDIT REPORT NO. 6-263-10-001-P
October 27, 2009




CAIRO, EGYPT
Office of Inspector General


October 27, 2009

MEMORANDUM

TO:            USAID/Egypt Mission Director, Hilda Arellano

FROM:          Regional Inspector General/Cairo, Jacqueline Bell /s/

SUBJECT:       Audit of USAID/Egypt’s Democracy and Governance Activities (Audit Report No.
               6-263-10-001-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
carefully considered your comments on the draft report, and we have included the mission’s
comments in their entirety in appendix II.

This report includes 10 recommendations for your action. Based on management’s comments,
the audit considers that management decisions have been reached and final action taken on
recommendations nos. 1, 2, 3, 4, 5, 6, 7, 9, and 10. Determination of final action will be made
by the Audit, Performance and Compliance Division (M/CFO/APC) upon completion of the
planned corrective actions for recommendation no. 8.

Thank you for the cooperation and courtesy extended to the audit team during this audit.
CONTENTS
Summary of Results.......................................................................................................... 1

Background ....................................................................................................................... 2

Audit Objective .................................................................................................................. 4

Audit Findings ................................................................................................................... 5

     USAID/Egypt’s Democracy and Governance
     Projects Achieved Limited Impact…………………………………………….………….11

     USAID/Egypt Should Increase
     Management Oversight............................................................................................. 14

     USAID/Egypt Award Recipients Should
     Ensure That Antiterrorism Measures
     Are Conducted .......................................................................................................... 16

     USAID/Egypt Should Verify
     Reported Data ……………………………………………………………………………..18

     USAID/Egypt Should Monitor
     Cost Share Contributions .......................................................................................... 20

     USAID/Egypt Should Obtain Waivers
     for Participant Training ……………………………………………………………………22

     USAID/Egypt Should Evaluate
     Options for Unused Equipment……………………………………………………..........24

     USAID/Egypt Should Ensure
     Technical Representative
     Requirements Are Met ……………………………………………………………………26

Evaluation of Management Comments ........................................................................... 28

Appendix I – Scope and Methodology ............................................................................ 30

Appendix II – Management Comments........................................................................... 33

Appendix III – Bilateral and Direct Grants Program Implementers ................................. 42

Appendix IV – Planned vs. Actual Indicators for Fiscal Year 2008 ................................. 43

Appendix V – Planned Activities for Fiscal Year 2008 .................................................... 45
SUMMARY OF RESULTS
The U.S. Government works strategically with the Government of Egypt to promote
peace and regional stability, counter extremism and terrorism, and create an
environment conducive to economic reforms. The U.S. Government provides $415
million in economic assistance to the Arab Republic of Egypt, which includes programs
to promote democracy. The mission’s funding for democracy and governance programs
averaged $24 million from fiscal years (FYs) 1999–2009. USAID/Egypt’s funding
increased in 2004 by 97 percent, which was sustained from 2006 to 2008. Since FY
2004, USAID/Egypt’s Office of Democracy and Governance has designed and awarded
$181 million in program activities that focus on rule of law and human rights, good
governance, and civil society. As of September 30, 2008, USAID/Egypt had obligated
$143 million and expended $85 million for these activities (pages 2–4).

The mission acknowledges the restrictive political environment in which it operates.
USAID/Egypt’s Office of Democracy and Governance has achieved limited results for 13
judgmentally selected awards in the three program areas. Based on audit results, the
office achieved 52 percent of planned results for the 13 awards and successfully
completed 65 percent of its activities during FY 2008 (page 5).

The impact of USAID/Egypt’s democracy and governance activities has been limited
based on the programs reviewed. In published reports, independent nongovernmental
organizations ranked Egypt unfavorably in indexes of media freedom, corruption, civil
liberties, political rights, and democracy. Egypt’s ranking remained unchanged or
declined for the past 2 years, and the impact of USAID/Egypt’s democracy and
governance programs was unnoticeable in indexes describing the country’s democratic
environment (page 5).

The Government of Egypt signed a bilateral agreement to support democracy and
governance activities (page 5), but it has shown reluctance to support many of USAID’s
democracy and governance programs and has impeded implementers’ activities.
Despite the spirit with which the U.S. Congress espoused the civil society direct grants
program, the Government of Egypt’s lack of cooperation hindered implementers’ efforts
to begin projects and activities through delays and cancellations (pages 10–11).

USAID/Egypt’s Office of Democracy and Governance achieved some results during
FY 2008, but the audit concluded that it should improve management controls to
strengthen management oversight (page 14), ensure that antiterrorism measures are
conducted (page 16), verify reported data (page 18), monitor cost share contributions
(page 20), obtain waivers for participant training (page 22), evaluate options for unused
equipment (page 24), and meet technical representative requirements (page 26).

USAID/Egypt generally agreed with all 10 recommendations.            USAID/Egypt’s
Democracy and Governance Director agreed with the spirit and intent, but not the
wording, of two recommendations. Management decisions have been made for all 10
recommendations, and the mission has taken final action on 9 recommendations. The
mission reached a management decision on recommendation no. 8, but final action will
not be taken until USAID/Egypt issues a mission order to address participant training
issues (pages 28–29). Management comments are included in appendix II.


                                                                                       1
BACKGROUND
The U.S. Government has worked strategically with the Arab Republic of Egypt
(Government of Egypt) to promote peace and regional stability, counter extremism and
terrorism, and create a conducive environment for economic reforms. For the past 20
years, USAID has invested more than $800 million in local government and
decentralization projects in Egypt. However, Egypt has been governed under a
centralized system that has led to limited democracy. For nearly 28 years, the same
president has governed Egypt, which boasts the largest population in the Middle East
and North Africa, with nearly 75 million people. Although Egypt has made efforts toward
greater democracy, Egyptian citizens have not had much influence in governance
because of restricted freedoms of expression and a media sector that is largely
government owned. Egypt possesses some of the characteristics of a functioning
democracy, but its constitutional, legal, and institutional framework are designed to
ensure almost complete domination and control of all branches and activities of
government by the president, thereby limiting efforts for general democratic reform.

                               Figure 1. Map of Egypt




                                 Source: USAID/Egypt.

USAID/Egypt has used two types of instruments to administer its democracy and
governance activities: a bilateral agreement and a direct grants program. USAID’s
Office of Democracy and Governance and the Government of Egypt implemented
programs in the three major areas of rule of law and human rights, good governance,
and civil society programs. Using the direct grants program, USAID/Egypt has awarded
grants and cooperative agreements to nongovernmental organizations (NGOs) and
other civil society organizations without prior approval from the Egyptian government.




                                                                                     2
In fiscal year (FY) 2008, U.S. foreign economic assistance to Egypt was valued at $415
million, which included specific programs to promote democracy (valued at $55 million).
On average, for the 10 years since 1999, USAID/Egypt has provided $24 million to
implementers to conduct democracy and governance programs. Although the mission’s
funding for democracy and governance programs averaged $24 million annually,
USAID/Egypt’s funding spiraled upward as much as 97 percent in 2004, with a drastic
increase in FYs 2006–2008. Since FY 2004, USAID/Egypt has designed democracy
and governance programs valued at $181 million to be conducted until the end of
FY 2012.

Mission Funding and Portfolio
In late 2004, Congress redirected the funding for democracy programs in Egypt. Since
no mechanisms existed to ensure that the Government of Egypt used U.S. Government
funds for democracy promotion, an amendment 1 to the Foreign Operations Fiscal Year
2005 Appropriations bill 2 directed USAID to program democracy and governance
activities and removed the Egyptian government’s power to decide the fate and funding
of democracy programs inside Egypt. According to the deputy mission director, the
congressional earmark for democracy and governance activities was intended to show
the U.S. Government’s commitment to achieving democracy and governance in Egypt.
The amendment gave USAID the authority to provide funding to NGOs and other
segments of civil society that were not officially recognized by the Government of Egypt.
With new congressional authority, USAID/Egypt initiated a direct grants program in 2005
and experienced dramatic funding increases, specifically for the direct grants program.
Figure 2 illustrates the mission’s funding levels from FYs 1999 to 2009.

Historically, USAID/Egypt has designed democracy and governance programs to
respond to opportunities for specific and broad political liberalization reforms in Egypt. In
FYs 2000–2005, USAID/Egypt’s democracy and governance programming focused on
increasing the availability of effective legal services, strengthening NGOs, increasing
local government service delivery, and enhancing citizen participation. During this
period, Congress provided USAID/Egypt with relatively stable funding at approximately
$12 million annually. In FY 2005, in response to increasingly active and more open
political discourse, an increased number of notable governmental and nongovernmental
initiatives, and rising interest and willingness of governmental and nongovernmental
entities to receive assistance, USAID/Egypt expanded its democracy and governance
program to include significant assistance in new areas such as the development of more
competitive political processes, media, family and criminal justice, and decentralization.
Many of these democracy and governance initiatives were funded directly through
Egyptian NGOs for the first time since USAID assistance began in the 1980s.




1
  Conference Report 108–792 (2004), page 993. U.S. Senator Sam Brownback introduced the
amendment as an effort to make the Government of Egypt more accountable for the way it
treated its citizens and presented itself to the world.
2
  Public Law 108-447 (2004).


                                                                                           3
       Figure 2. Democracy and Governance Funding Levels (1999–2009)*


                          60,000,000


                          50,000,000



             Dollar ($)
                          40,000,000


                          30,000,000


                          20,000,000


                          10,000,000


                                   0
                                       1999   2000   2001   2002   2003   2004      2005   2006   2007   2008   2009
                                                                      Fiscal Year

            Source: USAID/Egypt.
            Note: * Unaudited dollar values.

At the end of FY 2005, USAID/Egypt’s Office of Democracy and Governance had funded
one contract and seven grants with a budget of $3.5 million. However, by FY 2006, the
U.S. Government had increased funding for USAID/Egypt’s democracy and governance
program to $51 million, making it the third largest democracy and governance program
in the Near East. The drastic funding increase of 1,366 percent from FY 2005 to
FY 2006 required the mission to rapidly develop new programs in the democracy and
governance portfolio, although the mission did not request increased funding most often
and has not been able to expend much of the funds in a timely manner. Over the next 3
years, the funding increased USAID/Egypt’s democracy and governance program value
and more than doubled the number of democracy and governance programs, from one
contract and 7 grants valued at $36 million in FY 2005 to six contracts, 73 grants, and
eight cooperative agreements valued at $181 million by the end of FY 2008.

As of September 30, 2008, USAID/Egypt’s Office of Democracy and Governance had
awarded $181 million, which included $122 million in a bilateral agreement to fund six
contracts and a grant agreement. The mission committed the remaining $59 million for
its direct grants program to fund 80 grants and cooperative agreements for initiatives in
human rights, anticorruption and transparency, elections and political processes, civic
participation, and civic education. Of the $181 million available for democracy and
governance activities, USAID/Egypt has obligated $143 million and expended $85
million during FYs 2005–2008. The democracy and governance contracts are expected
to expire in 2012, and the future of the civil society direct grants program is uncertain.

AUDIT OBJECTIVE
As part of its FY 2008 annual plan, the Regional Inspector General/Cairo audited
USAID/Egypt’s democracy and governance activities. The audit was designed to answer
the following questions:

•   Have USAID/Egypt’s democracy and governance activities achieved their intended
    results, and what has been the impact?

The audit’s scope and methodology are described in appendix I.



                                                                                                                       4
AUDIT FINDINGS
Despite USAID/Egypt awarding more than $181 million for program activities since 2004
and the mission’s acknowledgment of the restrictive political environment in which it
conducts programs, the Office of Democracy and Governance has achieved limited
results for 13 judgmentally selected awards. Valued at $62.3 million, the programs
support rule of law and human rights, good governance, and civil society. Based on the
audit results, USAID/Egypt’s Office of Democracy and Governance achieved only
52 percent of its planned results for the 13 awards and successfully completed only
65 percent of its activities during fiscal year (FY) 2008.

Based on the programs reviewed, the impact of USAID/Egypt’s democracy and
governance activities was limited in strengthening democracy and governance in Egypt.
Furthermore, in separate recently published reports, independent nongovernmental
organizations (NGOs) ranked Egypt unfavorably in indexes of media freedom,
corruption, civil liberties, political rights, and democracy. Egypt’s ranking in these
indexes remained unchanged or declined for the past 2 years. The overall impact of
USAID/Egypt’s programs in democracy and governance was unnoticeable in indexes
describing the country’s democratic environment.

A major contributing factor to the limited achievements for some of these programs
resulted from a lack of support from the Government of Egypt. According to a mission
official, the Government of Egypt has resisted USAID/Egypt’s democracy and
governance program and has suspended the activities of many U.S. NGOs because
Egyptian officials thought these organizations were too aggressive. Notwithstanding the
Egyptian government’s negative actions, U.S. decisionmakers did not terminate the
democracy and government program.

USAID/Egypt has used two types of instruments to administer its democracy and
governance activities: a bilateral agreement and a direct grants program. Under the
bilateral agreement, USAID and the Government of Egypt agreed to implement
programs in the three major areas of rule of law and human rights, good governance,
and civil society programs (Figure 3). Using the direct grants program, USAID/Egypt
has awarded grants and cooperative agreements to NGOs and other civil society
organizations without prior approval from the Egyptian government.

USAID/Egypt’s Office of Democracy and Governance developed programs with the
objective of strengthening democracy and governance in rule of law and human rights,
good governance, and civil society. Activities within the three major areas reviewed
include commodities, technical assistance, training, or resource transfers designed to
contribute to achieving the following objectives:

•   Rule of Law and Human Rights – strengthen the administration of justice and access
    to justice for women and disadvantaged groups.
•   Good Governance – promote a more accountable and responsive local government.
•   Civil Society – promote greater independence and professionalism in media and
    strengthen the organizational capabilities of civil society organizations while directly
    supporting their programs in areas such as political reform, elections monitoring, and
    civic education.


                                                                                          5
In the past, USAID/Egypt used a bilateral program with the Government of Egypt to
conduct its democracy and governance programs. However, the mission modified its
approach in 2005 to add a direct grants program after Congress allowed USAID/Egypt to
have more control over its funding.

Figure 3. Organizational Structure of the Reviewed Democracy and Governance
Program

                                      Democracy and
                                       Governance
                                        Program




       Rule of Law and        Good Governance                           Civil Society
        Human Rights




                                     Egyptian         Media Development            Civil Society Direct
     Family Justice Project     Decentralization             Program                Grants Program
      (Bilateral agreement)          Initiative       (Bilateral agreement)
                              (Bilateral agreement)



Of the seven awards under the bilateral program, USAID/Egypt awarded three contracts
valued at a total of $55 million to Management Sciences for Development, Incorporated,
for the Family Justice Project; to AECOM International Development for the Egyptian
Decentralization Initiative; and to Management Systems International, Incorporated, for
the Media Development Program, to conduct activities in rule of law and human rights,
good governance, and civil society, respectively. In FYs 2005–2008, USAID/Egypt’s
Office of Democracy and Governance also awarded 80 grants and cooperative
agreements valued at $59 million under its civil society direct grants program to expand
and strengthen civil society organizations’ activities in human rights, anticorruption and
transparency, elections and political processes, civic participation, and civic education.

The 13 awards judgmentally selected include contracts, grants, and one cooperative
agreement, and represent 34 percent of the total democracy and governance portfolio.
These awards include three contracts valued at $55 million, nine grants valued at $6.8
million, and one cooperative agreement valued at $589,000. The three contracts
represent 45 percent of the total value of awards under the bilateral program, and 10 of
the 80 civil society grants and cooperative agreements reviewed represent 13 percent of
the total value of awards under the direct grants program funded for USAID/Egypt’s
Office of Democracy and Governance activities during FY 2008.

The major program areas for USAID/Egypt’s democracy and governance program
include 25 performance indicators for FY 2008 and at least 182 specific activities that
implementers should conduct to achieve desired results toward a program objective.
Although USAID/Egypt developed programs to strengthen democracy and governance,
in December 2008, USAID/Egypt reported in the interagency State and USAID’s FY
2008 Egypt Full Performance Plan and Report that its Office of Democracy and



                                                                                                          6
Governance achieved only about half of its planned results. The report also indicated
that the mission did not achieve 28 percent of its planned results, and either dropped or
did not establish targets for 20 percent of the democracy and governance indicators.
Despite an unfavorable report on program achievement, USAID/Egypt has not had much
time to make any changes to its program. Appendix IV illustrates the program’s FY 2008
results, and table 1 summarizes the FY 2008 performance indicator results by program
area.

Table 1. USAID/Egypt’s Democracy and Governance Program Results for FY 2008
Indicators

   Democracy and                                                                       No
 Governance Program            No. of                      Not                       Target/
     Component               Indicators     Achieved     Achieved      Dropped       Results
   Rule of Law and
    Human Rights                  8              3           3             1            1
  Good Governance                8              5            1             0            2
     Civil Society                9              5           3             1            0
        Total                    25             13           7             2            3
     Percentage                                52%          28%           8%           12%

The performance indicators include a quantitative summary of the numbers of positive
changes to legislation, professional people trained, and recipients such as local NGOs
and civil society organizations assisted. Mission officials believe these performance
indicators to be critical to the success of its projects for rule of law and human rights,
good governance, and civil society programs. According to the technical representatives
managing the selected programs, it is difficult to characterize any indicator as more
important than the others since all indicators complement each other. Additionally, the
performance indicators for the direct grants program measure different aspects of the
results of the activities that may be not mutually exclusive in terms of quantifiable
contributions to the promotion of democracy, since the contributions for one direct grant
program could be related to the results of more than one grant.

Although the democracy and governance program achieved only about half of its
planned results for 25 performance indicators, it was more successful in achieving
results for its planned activities. During FY 2008, the implementers successfully
achieved 119 of 182 (65 percent) of their activities for both the bilateral and direct grants
program activities designed to strengthen the administration of justice, promote a more
accountable local government, promote greater independence and professionalism in
the media, and strengthen the organizational capabilities of civil society organizations.
Summary information for the planned activities is shown in table 2.




                                                                                           7
Table 2. USAID/Egypt’s Democracy and Governance Program Results for FY 2008
Activities


  Democracy and Governance Program              Planned                     Percentage
                 Component                      Activities     Achieved      Achieved
       Rule of Law and Human Rights
Family Justice Project                             43             30            70%
              Good Governance
Egyptian Decentralization Initiative               22              7            32%
                  Civil Society
Media Development Program                           26             9            35%
Civil Society Direct Grants Program                91             73            80%
Total                                              182            119           65%

Within the three program areas, USAID/Egypt achieved its highest percentage of results
for its civil society direct grants program activities. The following sections describe the
achievements of the selected USAID/Egypt programs in these three areas.

Rule of Law and Human Rights

USAID/Egypt, in coordination with the Egyptian Ministry of Justice and National Council
of Childhood and Motherhood, implemented the Family Justice Project. The contract,
which is managed by Management Sciences for Development, is valued at $17 million.
The project was designed with two main components:

   •   Train family court judges and mediators, repair family courts, and provide media
       support for the Ministry of Justice.
   •   Provide grants to NGOs to promote awareness on child rights, family courts, and
       women’s rights, and to provide economic assistance for families facing disputes.

Although the Family Justice Project planned at least 43 activities, during FY 2008, the
implementer completed 30 activities and did not complete 13 activities as planned.
Under the first component, the implementer, Management Sciences for Development,
successfully trained 562 family court judges in more than 20 governorates and
completed infrastructure repairs in 23 family court mediation offices in the Minya and
Giza governorates. However, the implementer did not provide media support for the
Ministry of Justice that included developing a database for the ministry’s press office,
organizing media events for mediation offices, and developing a documentary film about
the process of infrastructure repairs for all the project sites. Under the second
component, the implementer succeeded in awarding new grants and providing technical
support to the grantees. However, the project achieved mixed results in promoting
counseling for children and raising community awareness on the existence of counseling
centers throughout the governorates of Minya, Giza, and Port Said.

Good Governance

Working in coordination with the Egyptian Ministry of State for Local Development,
Ministry of State for Administrative Development, Ministry of Finance, and other
ministries, USAID/Egypt funded the Egyptian Decentralization Initiative to support local


                                                                                         8
government and decentralization managed by AECOM International Development in a
contract valued at $22 million. The three main components of the initiative were to
(1) improve the capacity of local government to respond to citizen priorities by increasing
revenue, (2) enhance participatory mechanisms to manage resources, and
(3) strengthen management.

Although the Egyptian Decentralization Initiative planned at least 22 activities, during
FY 2008, the implementer completed only 7 activities and did not complete 15 activities.
Under the first component, the implementer successfully assisted districts in enhancing
automation systems in at least four service centers and in preparing an annual fiscal
profile of governorate, district, and village revenues and expenditures to strengthen
financial management capabilities. However, the project did not implement a collection
fee system for public cleaning services in its six pilot districts because the decision to
automate the system was delayed, and ultimately the scope was changed to allow the
system to be developed only in the El Beheira governorate. Under the second
component, the implementer successfully assisted in developing plans to allocate local
revenues for six districts. Under the third component, the implementer achieved some
results to help propose specific revisions to the current local administration law.
However, the implementer was not successful in developing functional maps for key
sectors showing decentralization opportunities because the Government of Egypt was
hesitant to act.

Civil Society

USAID/Egypt worked in cooperation with the Egyptian Ministry of International
Cooperation to build the training capacity of Egyptian institutions, improve the
management of media, strengthen the organizational capacity of local media, and
improve the media environment. In a contract valued at $16 million, the program
implementer, Management Systems International, planned at least 26 activities. The
implementer completed 9 activities but did not complete 17 activities for FY 2008.

The project had mixed results in each of its four components. Although the project
assisted in broadening English language skills among some Egyptian media
professionals and trained journalists in local media, the implementer did not perform
customized market research or provide baseline advertising data to assist its partners’
ability to increase revenues, as scheduled.

Civil Society Direct Grants Program

USAID/Egypt’s Office of Democracy and Governance achieved its greatest success in
its civil society direct grants program, which provided grants and cooperative
agreements valued from $192,000 to $1.4 million during FY 2008. Implementers
successfully completed 73 of 91 planned activities (80 percent) during FY 2008 and
achieved major successes in increasing dialogue among civil society organizations,
decisionmakers, religious leaders, and the local community; organizing discussions
about democracy within the media sector; and monitoring a national midterm election.
Using this program, USAID/Egypt was not required to receive approval from the
Egyptian government about its partnership with the organizations working throughout
Egypt. The civil society direct grants program included program activities for initiatives in
human rights, anticorruption and transparency, elections and political processes, civic
participation, and civic education.


                                                                                           9
Although the percentage of the civil society direct grants program shows that the
implementers conducted many planned activities, the numbers alone do not adequately
reflect the impact of the activities in the civil society sector. To illustrate, Al-Nakib Center
for Training and Democracy received $618,000 to enhance the integrity of the Egyptian
electoral process by training 2,100 individuals to monitor the 2007 Shura Council
elections. However, the recipient reported that only 840 (40 percent) of the individuals
were given identification cards to monitor the elections. Moreover, local Egyptian
governorates did not recognize many of the identification cards as legitimate.
Consequently, many of the monitors were denied entrance into the polling stations,
limiting the impact of this activity.

Furthermore, numerous obstacles delayed completion of planned activities for both
USAID/Egypt’s bilateral program and civil society direct grants program because of the
Government of Egypt’s resistance to activities, delays in government approvals, and
changes in agreed-upon activities. Three contractors under the bilateral program
described some of the difficulties they experienced in implementing activities:

   •   One contractor noted a lack of transparency that negatively affected efforts to
       evaluate training activities because two ministries with which the contractor
       worked would not share information about the numbers of legal specialists, social
       workers, and psychologists employed by the ministries.
   •   Another contractor described a biased selection of training participants. The
       contractor stated that the chairman of a steering committee nominated favored
       individuals for study tours abroad, which resulted in repetitive participants
       attending study tours. In particular, one professor from Cairo University went on
       two study tours conducted in Germany and the United States.
   •   In another incident, a contractor cited a lack of agreement for decentralization at
       the national level with creating a challenge in changing legislation as well as
       causing delays in selecting governorates in which the implementer could work.
       At the local level, the success of a project was largely dependent on the support
       of the governor. In one example, a project was making positive changes with a
       supportive governor in the Qena governorate. However, after a new governor
       assumed duties, decentralization projects collapsed because of a lack of support.

Implementers under the direct grants program also described some of the obstacles
encountered in working with the Government of Egypt in implementing activities:

   •   A U.S.-based NGO endured 18 months of delays in attempting to partner with a
       local NGO that was approved by the Government of Egypt.
   •   Another grantee endured lengthy delays in project activities after the Egyptian
       government suspended the distribution of civic education reading materials and
       returned more than 60,000 children’s books to the implementer. Consequently,
       the grantee had to find alternative means to distribute the books to
       schoolchildren.
   •   One grantee endured a 6-month delay in beginning activities because the
       Ministry of Social Solidarity did not approve the project’s activities with other civil
       society organizations.
   •   The Egyptian government cancelled a grantee’s training event without providing
       any reasons for the decision. The grantee had planned training events focused



                                                                                             10
        on anticorruption and political reform activities. As a result, the grantee had to
        find alternative ways to continue its activities.

Despite the spirit with which Congress espoused the civil grants program, the
Government of Egypt’s lack of cooperation hindered some implementers’ efforts to begin
projects and activities.

Although USAID/Egypt’s Office of Democracy and Governance program encountered
many difficulties in working with the Government of Egypt, insufficient management
controls amplified some of the problems the mission experienced in conducting the
program. When funding increased substantially for the democracy and governance
program portfolio in 2006, the office did not strengthen its management controls to
mitigate increased risks and the management burden. In particular, the office did not
increase its oversight of activities in reviewing the progress of activities, ensuring
physical control of vulnerable assets, and ensuring accurate and appropriate
documentation of events.

USAID/Egypt’s Democracy and Governance
Projects Achieved Limited Impact
The accomplishment of activities for the three bilateral contracts and 10 assistance
agreements for FY 2008 indicate that the mission has had limited success in
strengthening democracy and governance in Egypt. On average, the projects met
65 percent of their planned activities for FY 2008. Nevertheless, USAID/Egypt’s
democracy and governance programs achieved some successes in rule of law and
human rights, good governance, and civil society.

In one rule of law and human rights project, the Family Justice Project achieved some
successes in:

   •    Developing a mediation training manual that was provided to all trainees.
   •    Providing $2,005,000 in funding to 34 Egyptian NGOs that will provide support
        services to families, including legal aid, psychological counseling, mediation
        services, and economic empowerment.




       Photograph of handicrafts made by women under the Family Justice Project in Giza, Egypt.
                       (Regional Inspector General/Cairo, December 22, 2008.)



                                                                                              11
Although some rule of law and human rights activities were accomplished, their impact
has been limited. To illustrate, one of the major activities in the contract is to provide
specialized training for family mediators in selected governorates. However, some
unresolved issues limited the lasting impact of the project:

   •   The project provided training to 960 specialists working in mediation offices.
       However, 126 psychologists and 317 social workers (46 percent of the specialists)
       are employed by other ministries and may not use the training as intended.
   •   The implementer also reported that the project provided training to 767
       specialists who were not employed by the Ministry of Justice. They represented
       48 percent of 1,582 specialists trained since the beginning of the project.
   •   In another example, the implementer reported training 562 family court judges.
       However, some time after the training, the Egyptian government transferred
       about 15 to 20 percent of the trained family court judges to other courts.

USAID/Egypt’s good governance project, the Egyptian Decentralization Initiative, also
achieved some successes, such as the following:

   •   Developing preliminary plans for 40 villages and six towns in the initiative’s three
       pilot governorates.
   •   Assisting in establishing four of six automated citizen service centers, which were
       designed to improve citizen satisfaction with local governance, reduce waiting
       times at the service centers, and reduce public sector corruption.




               Photograph of an automated citizen service center in Asuit, Egypt.
                    (Regional Inspector General/Cairo, January 21, 2009.)

However, the implementers did not complete many of their activities as planned during
FY 2008. Uncompleted activities include the following:

   •   Support for the automation of collection of property taxes in selected districts was
       not completed because the Government of Egypt nationalized or centralized
       property taxation. This action eliminated a local governance function that would
       have improved the governorates’ capacity to finance local priority needs through
       improved property tax collection rates.
   •   After a governorate did not provide the necessary equipment specifications,
       complete building construction, or hire staff to operate geographic information


                                                                                        12
       systems equipment for a data management and urban planning center, the
       implementer delayed the completion of the activity until the following fiscal year.

Both programs under the civil society achieved some planned activities in FY 2008, as
follows:

   •   The Media Development Program implementer signed a memorandum of
       understanding with the Egyptian Press Syndicate to help train 6,000 journalist
       members and their institutions. In addition, the program provided consultation on
       the use of local advertising markets to boost circulation and ad revenue. The
       activity resulted in the first local supplement for Alexandria, Egypt’s second-
       largest city.




    Photograph of USAID-funded computers at Akhbar El-Yom Training Center in Cairo, Egypt.
                     (Regional Inspector General/Cairo, February 2, 2009.)

Although some activities were accomplished, the program did not achieve some of its
planned activities, including a program to train 60 Egyptian State Information Service
press officers in the governorates, targeting both higher management and younger press
officers. The implementer reported that the project was unable to complete the activity
because the State Information Service was uncooperative. In another example, the
implementer planned to introduce voice services, such as text to speech and interactive
voice response, to the Middle East News Agency as a first step in a local news
exchange. However, this activity was not conducted because the technology to be used
was not compatible with the Arabic language.

Although the Civil Society Direct Grants Program achieved its greatest success in
conducting democracy and governance activities, the program had a limited impact on
strengthening democracy and governance in Egypt. While the grantee programs
reviewed achieved more than half of their planned activities, the impact of these
activities was limited because of political circumstances, government resistance, and the
grantees’ lack of experience. Some examples include the following:

   •   A grantee received $1.2 million, in part to provide training on principles of
       democratic governance and civic participation to at least 600 teachers and
       30,000 middle, high school, and university students in four regions of Egypt.
       However, the grantee managed to train only 330 teachers and about 2,000
       students, less than 8 percent of the target.


                                                                                             13
   •   Another grantee received more than $950,000 to publish and distribute a
       children’s book on civic education. Although the grantee provided 40,000 copies
       to an Egyptian ministry for distribution to schoolchildren, the grantee could not
       verify that any schoolchildren actually received the books.
   •   After USAID/Egypt paid a grantee $271,000 to provide training and 1 year of
       practical experience in working with civil society associations to 100 lawyers, only
       16 of the trainees continued to work with the grantee for the entire year.
   •   USAID/Egypt provided a grantee $192,000 to issue 2,000 identification and
       voting cards in a village within the Qalioubiya Governorate. However, the
       grantee issued only 330 (17 percent) of the cards in time for the citizens to vote
       in an April 2007 election.

USAID/Egypt had the authority to take corrective action when an implementer was not
achieving its results. But in some instances the mission did not take appropriate action,
because the staff was unaware of problems due to weak management controls.

Although USAID/Egypt’s Office of Democracy and Governance Program had limited
success in strengthening democracy and governance in Egypt, the mission’s program
could be more beneficial with strengthened management controls regarding reviews of
administrative and programmatic activities and documentation. This section discusses
these matters and provides recommendations that should help USAID/Egypt strengthen
the following management controls:

   •   Antiterrorism measures
   •   Verification of reported data
   •   Implementers’ cost share contributions
   •   Participant training waivers
   •   Options for unused equipment

USAID/Egypt Should Increase
Management Oversight

 Summary: Automated Directives System 303, Grants and Cooperative Agreements
 to Nongovernmental Organizations, states that technical representatives should
 review and analyze reports, monitor reporting requirements, and ensure the
 recipient’s compliance with numerous terms and conditions of an award. In at least
 three instances, a USAID/Egypt democracy and governance agreement officer’s
 technical representative did not ensure that a cooperative agreement was signed,
 that the primary recipient had a written agreement with its sole subrecipient, and that
 progress reports were made available in English. According to the technical
 representatives involved, democracy and governance staff encountered numerous
 problems managing the program activities because of competing management
 priorities and grantee inexperience. Consequently, USAID/Egypt cannot be assured
 that its democracy and governance recipients comply with legally binding terms and
 conditions that could help the mission achieve intended program results.

USAID has developed extensive guidelines on the management of assistance awards
and requirements for implementers that require agreement with the terms of an award
and mandatory standard provisions. USAID’s Automated Directives System (ADS) 303,


                                                                                        14
Grants and Cooperative Agreements to Nongovernmental Organizations, states that
technical representatives should review and analyze reports, monitor reporting
requirements, and ensure the recipient’s compliance with numerous terms and
conditions of an award. Some of these mandatory standard provisions for non-U.S.,
nongovernmental recipients require that subagreements shall contain provisions about
financial audit requirements, termination or suspension of awards, antiterrorism financing
responsibilities, and branding and marking responsibilities.

Furthermore, ADS 621.3.4, Types of Obligations and Documentary Evidence, states that
only a USAID signature is required for an assistance award unless major issues are
unresolved between USAID and the grantee, in which case both parties must sign the
award. However, ADS 303.3.13, The Award Process and Elements of an Award, states
that recipients are required to agree to the terms of the agreements, which are legally
binding. Moreover, USAID/Egypt’s director of procurement stated that all grants and
cooperative agreements must be signed and kept on file. Without the signed copy,
recipients can terminate the agreement. As a result, it would be impossible to determine
whether USAID had a binding relationship with the grantee.

Although the 13 implementers’ and grantees’ activities had successfully completed some
activities, in three notable examples, the agreement officer’s technical representative did
not ensure that agreements were monitored effectively, that some of the implementers
complied with USAID rules and regulations, or that the terms and conditions of the
agreements and documents were made available for effective supervisory review. In
one case, in February 2007, Environmental Quality International did not sign a
cooperative agreement with USAID/Egypt that was valued at $588,650. Furthermore,
the same organization never entered into a written agreement with its sole subrecipient.
According to Environmental Quality International’s project manager, as the prime
recipient, the organization did not have a written agreement with its only subrecipient
because it did not believe the agreement was necessary.

In another case, the Arab Penal Reform Organization did not submit progress reports to
USAID/Egypt in English for nearly 2 years because the Office of Democracy and
Governance did not require it to do so. Because the office did not require progress
reports to be documented in English, the agreement officer’s technical representative
needed the assistance of a native Arabic speaker to translate the reports verbally,
hindering timely supervisory review and approval.

According to the technical representatives involved, democracy and governance staff
encountered numerous problems managing the program activities because of competing
management priorities and grantee inexperience. First, each of the eight contracting
and agreement officers’ technical representatives oversaw multiple agreements with
varying levels of management oversight for contracts and grant agreements. Second,
USAID/Egypt selected several nongovernmental civil society organizations and civil
companies that were inexperienced or were identified with high-risk areas in preaward
assessments. Increasing the workload and complicating matters further in FY 2008, the
democracy and governance staff was also responsible for evaluating more than 200 new
proposals for the direct grants program because of increased program funding.

Management oversight ensures that implementers, grantees, and subrecipients are
aware of their financial and programmatic responsibilities. Compliance with these
agreements is essential since the terms and conditions of an agreement include


                                                                                        15
references to U.S. laws and regulations, which if not adhered to could result in
suspension or termination of an award. Adequate oversight of awards is essential to
ensure that USAID programs are conducted as planned so that they have the potential
to achieve the best possible results. When implementers are not aware of or reminded
of fiscal and fiduciary responsibilities, risks to program achievements increase.
Consequently, this audit makes the following recommendations:

   Recommendation No. 1: We recommend that USAID/Egypt develop and
   document a training plan for assistance recipients to explain USAID rules,
   regulations, and expectations, prior to beginning activities.

   Recommendation No. 2: We recommend that USAID/Egypt develop and
   document a training plan to provide its democracy and governance staff refresher
   training on how to effectively manage programs including contracting and
   financial management responsibilities.

In May 2009, USAID/Egypt’s Office of Democracy and Governance stated that a Grants
Management Support Services (GMSS) contract was in place to help the office
immediately address many of this audit’s management recommendations. GMSS is
expected to strengthen the office’s monitoring and evaluation of Egyptian recipients, as
well as build the capacity of these organizations to implement and sustain grant
activities.

USAID/Egypt Award Recipients Should
Ensure That Antiterrorism Measures
Are Conducted

 Summary:      USAID mandatory standard provisions and an acquisition and
 assistance policy directive establish the legal responsibility for USAID recipients to
 include antiterrorism clauses in all subawards and comply with a certification
 regarding terrorist financing.       Despite the requirements, four USAID/Egypt
 implementers did not include mandatory clauses in agreements with subrecipients,
 and one implementer did not sign the antiterrorism certification. This occurred
 because technical representatives did not periodically verify the implementers’
 antiterrorism measures to ensure that required actions had been taken. As a result,
 USAID/Egypt has little assurance that its programs do not inadvertently provide
 material support to entities or individuals associated with terrorism.

Mandatory Standard Provisions for Non-U.S., Nongovernmental Recipients, a
mandatory reference for ADS 303, Grants and Cooperative Agreements to
Nongovernmental Organizations, and Acquisition and Assistance Policy Directive 04-14,
Certification Regarding Terrorist Financing Implementing E.O. 13224, issued on
September 24, 2004, implemented Executive Order 13224 on Terrorist Financing. The
directives establish the legal responsibility for recipients of USAID funds to comply with
the order and other laws. USAID/Egypt implements the executive order using two of
three antiterrorism measures: certification and mandatory clauses. Some USAID
missions implement Executive Order 13224 using three specific requirements:




                                                                                          16
    •   Mandatory Clauses – require mandatory provision to be included in all
        solicitations and awards for contracts, grants, cooperative agreements,
        subcontracts, and subawards indicating that a recipient will comply with
        antiterrorism guidance.
    •   Certification – requires all U.S. and non-U.S. entities to certify that they do not
        provide material support or resources for terrorism.
    •   Vetting – requires inquiries from individuals and searches of special databases
        for background information on contractors and subcontractors who receive in
        excess of $25,000, as well as recipients of assistance instruments regardless of
        the dollar amount.

Additionally, ADS 303.2, Primary Responsibilities, requires agreement officers’ technical
representatives to be responsible for prudently managing assistance awards by
monitoring to ensure recipients’ compliance with legally binding award terms and
conditions. However, USAID/Egypt’s Office of Democracy and Governance did not
monitor its implementers to ensure that they understood or complied with USAID’s
requirements to implement the Executive order.

Some implementers did not include the antiterrorism clause in their subawards. At least
one implementer and three primary recipients did not include the antiterrorism clause in
four subcontracts and awards for subrecipients. USAID/Egypt made awards to three
primary recipients, who made 105 awards to subrecipients. Of these 105 awards, a
sample of the three reviewed showed that some did not include the antiterrorism clause
in their subawards.

    (1) The contractor for USAID/Egypt’s Egyptian Decentralization Initiative, AECOM
        International Development, did not include the antiterrorism clause in at least four
        subcontracts with Egyptian NGOs.

    (2) At least 3 of 10 assistance recipients did not include the antiterrorism clause in
        some of the subawards reviewed:

        •   International Center for Journalists had subawards with participants who
            trained outside of the country.
        •   The Coptic Evangelical Organization for Social Services had subagreements
            with community service organizations.
        •   New Horizon Association for Social Development’s had subagreements with
            community service organizations.

Furthermore, the International Center for Journalists did not sign some of the required
documentation, including the antiterrorism certification that attests that the organization
did not provide material support or resources for terrorism. 3 Despite having received the
appropriate forms, the U.S. NGO did not sign or return the certification. USAID/Egypt
made the award, and neither the agreement officer’s technical representative nor the
agreement officer reviewed documentation for the appropriate certifications.

Although the information on antiterrorism was in all of the awards, the prime recipients
3
  ADS 303.3.8, Pre-Award Certifications, Assurances, and Other Statements of the Recipient,
states that an agreement officer must obtain specific certifications as required by U.S.
regulations. This includes a “Certification Regarding Terrorist Funding.”


                                                                                         17
did not require their subrecipients to comply with the order regarding antiterrorism
measures. Moreover, at least three contracting and agreement officers’ technical
representatives did not monitor or instruct the prime recipients to include the
antiterrorism clause in their subawards. Technical representatives stated that they had
too many agreements to oversee and were therefore overextended in monitoring their
agreements. In addition, one technical representative stated that monitoring the
subawards for clauses was not a specific staff responsibility.

Conceivable risks abound that USAID funds may inadvertently be provided to terrorists
or organizations associated with terrorism. Without ongoing communication about
specific antiterrorism requirements and periodic verification of procedures and
compliance, USAID/Egypt has little assurance that its programs do not inadvertently
support entities or individuals associated with terrorism. Consequently, this audit makes
the following recommendations:

   Recommendation No. 3: We recommend that USAID/Egypt document a review
   of its programs to determine whether a mission-wide order on antiterrorism
   measures would help to mitigate the mission’s risk of inadvertently providing
   financing to terrorist organizations or individuals associated with terrorism.

   Recommendation No. 4: We recommend that USAID/Egypt document and
   provide training to the democracy and governance implementers on USAID’s
   antiterrorism measures.

USAID/Egypt Should Verify
Reported Data

 Summary: Automated Directives System 303.2, Primary Responsibilities, states that
 technical representatives should review and analyze reports and monitor reporting
 requirements, as well as conduct site visits to allow for a more effective review. The
 technical representative’s designation letter also requires staff to request action from
 the agreement officer when an implementer submits information that is inadequate or
 indicates a problem. However, seven of eight technical staff did not verify
 implementer data or conduct site visits for at least 6 of the 10 direct grants program
 recipients and two of three contractors. Although democracy and governance
 technical representatives stated that this occurred because of political sensitivities,
 workload, and lack of cooperation from implementers, staff did not elevate these
 matters to the agreement officer for resolution. Consequently, unreliable data
 provided to managers and stakeholders could be used to make financial and
 programmatic decisions.

ADS 303.2, Primary Responsibilities, states that technical representatives should review
and analyze reports, verify timely performance, monitor reporting requirements, and
maintain contact, including site visits, which allow for a more effective review of the
project. USAID’s Guidebook for Managers and Cognizant Technical Officers (CTOs) on
USAID Acquisition and Assistance further states that these site visits may include
checking actual contractor performance against scheduled and reported performance or
determining whether the recipient is using its best efforts to achieve the purpose of the
grant or agreement.      In addition, as required by the technical representative’s



                                                                                       18
designation letter, staff is authorized to request that the agreement officer take
necessary action when a recipient does not submit performance reports or when
information about implementation activities is inadequate or indicates a problem.

Although USAID guidelines state the importance of site visits, seven of eight technical
staff did not conduct site visits or verify implementer data for at least 6 of the 10 direct
grants program recipients and two of three contractors reviewed. In one case, a
technical representative made no visits during an entire year of activities. Moreover,
when a technical representative visited an implementer, the staff person verified few to
no reported data and did not review the implementer’s data on activities. As a result, the
technical representatives relied heavily on progress reports and verbal confirmation,
which were not always reliable. In several instances, USAID/Egypt did not perform
accurate and timely verification of data to ensure that relevant information reported to
stakeholders was correct, as indicated in the following examples:

   •   A contractor operated two field offices in different governorates that used
       different methods to report results of people trained. One office counted a
       participant as trained only if the participant attended all of the training sessions.
       In contrast, the other office counted a participant as trained when the participant
       attended one of the multiple training sessions.
   •   A contractor relied on verbal confirmation for numbers of participants trained,
       with no supporting documentation. Moreover, if documentation was available, it
       was often incomplete, resulting in the contractor reporting unreliable data to
       USAID/Egypt.
   •   Assistance recipients ignored reporting requirements in the agreements.
       Although USAID agreements explicitly stated that progress reports must
       compare planned versus actual results, all 10 direct grants program recipients
       often did not report on some planned activities in the progress reports to
       USAID/Egypt’s Office of Democracy and Governance.
   •   Four of 10 assistance recipients could not produce supporting documentation
       including attendance sheets, distribution lists, and inventory logs for many of their
       planned activities. For example, USAID/Egypt awarded two grants to one
       recipient to publish books about civic education. Since the activities were similar
       and the timing for the two grants overlapped, the recipient could not determine
       the number of books published and distributed under each award.

Although USAID/Egypt’s Office of Democracy and Governance technical representatives
were aware of weak management controls and encountered uncooperative
implementers, the staff did not take any corrective action or elevate any matters for
resolution to the agreement officer. The democracy and governance technical
representatives stated that some of these deficiencies occurred for numerous reasons,
including political sensitivities, workload, and lack of cooperation from an implementer.
Specifically, one technical representative stated that political sensitivities prevented
management oversight because of fear that a USAID presence would disrupt the
recipient’s activities. The same technical representative stated that managing 12
agreements valued at approximately $50 million prevented the verification of reported
data and visits to grantees. Another technical representative stated that the workload
limited site visits to observe recipient activities or validate reported data. Moreover, in
one case, a technical representative stated that she asked the grantee to revise its final
report, but the grantee provided little or no response to requests for clarifications or



                                                                                         19
updated information. One technical representative attributed the lack of adequate
supporting documentation to a recipient’s being unaware that USAID/Egypt’s Office of
Democracy and Governance required separate reports on two grants, despite having
had a risk assessment 5 months prior that noted the commingling of financial data of its
accounts.

As a management control and a prudent management practice, managers should
perform observations and conduct visits to review program activities. Since program
deliverables are quantifiable or observable, managers should ensure that information is
accurate, reliable, and reasonable.       As a result of observations and adequate
management review, concerns about noncompliance issues can be elevated to
appropriate levels of management and resolved by an agreement officer who can
change or even terminate the award if necessary. Since both managers and
stakeholders rely on reported information to make management and budget decisions, it
is imperative that the data are accurate to determine whether a program is on target to
achieve intended results and make funding decisions, as warranted. Consequently, this
audit makes the following recommendation:

   Recommendation No. 5:         We recommend that USAID/Egypt develop a
   standardized checklist to document management reviews as a part of democracy
   and governance program assessments.

USAID/Egypt Should Monitor
Cost Share Contributions

 Summary:       Automated Directives System 303.3.10.4, Meeting Cost Sharing
 Requirements, requires technical representatives to monitor recipients’ financial
 reports to ensure cost share contributions are met and to elevate any issues to the
 agreement officer for resolution. However, USAID/Egypt’s Office of Democracy and
 Governance did not periodically review financial reports to ensure that recipients
 made appropriate cost share contributions. This occurred because technical
 representatives were not aware of their responsibility to monitor financial reports for
 cost share contributions. Consequently, four of the nine direct grants program
 recipients did not report about $148,000 in cost share contributions, and three
 recipients did not meet their cost share requirements of an estimated $8,493 before
 the projects ended. As a result, USAID/Egypt’s Democracy and Governance program
 was not able to increase resources that could have increased funding for the project.


ADS 303.3.10.4, Meeting Cost Sharing Requirements, states that a technical
representative should monitor the recipient's financial reports to ensure that contributions
are being met and should elevate any issues to the agreement officer for resolution.
Cost share contributions are the resources a recipient contributes to the total cost of an
agreement, which may include in-kind contributions, such as volunteer time, valuation of
donated supplies, equipment, and other property. Furthermore, guidance authorizes an
agreement officer to reduce the amount of the agreement or request recipients to refund
the difference.

USAID/Egypt’s Office of Democracy and Governance did not periodically review
financial reports that included information on the cost share contributions valued over


                                                                                         20
$280,000 for 9 of the 10 direct grants program recipients. The remaining recipient did
not have a cost share requirement. As of February 2009, four of the nine recipients did
not report on $148,000 in cost share contributions in USAID financial reports, as
required. Additionally, three of the nine recipients did not provide adequate cost share
contributions before the projects ended. Although USAID/Egypt’s Office of Democracy
and Governance expected the recipients to contribute nearly $99,000 in cost share, the
three recipients did not meet cost share requirements valued at an estimated $8,493, as
shown in table 3.

Table 3. Questioned Costs on Cost Share Contributions

                                                               Reported          Questioned
                                                              Cost Share         Cost Share
                Recipient                Completion Date     Requirement 4       (estimated)
    Egyptian Association for Human
    Environmental Development              Sept. 2008           $49,785            $4,644
    New Horizon Association for Social
    Development                             Oct. 2008            $2,320            $2,320
    Al-Nakib Center for Training and
    Democracy                              Dec. 2007            $46,465            $1,529
                                 TOTAL                          $98,549            $8,493

None of the seven technical representatives monitored the recipient’s financial reports to
ensure that the recipient was making progress toward meeting the cost share
contributions. Agreement officer’s technical representatives for several of the recipients
stated that they were unaware of their responsibility in this regard. Consequently, some
of the democracy and governance implementers did not remit the agreed-upon cost
share contribution because USAID/Egypt did not review cost share information in the
financial reports, request adequate payment, or request that the implementers provide
this data for review. Furthermore, one recipient stated that its organization was unaware
of its cost share requirement even though the recipient signed an agreement
modification acknowledging the obligation.

Cost share contributions provide a mechanism by which USAID implementers can
contribute funding directly to specific projects, which increases funding available for their
projects. In addition, nonfinancial cost share contributions help recipients build their
organizational capacities in mobilizing resources, fundraising, improving sustainability,
and providing a financial stake in the success of the programs. This funding, if not
provided, may hinder the achievement of program goals and activities. To address this
issue, this audit makes the following recommendations:

      Recommendation No. 6:           We recommend that USAID/Egypt make a
      management decision on the questioned cost sharing and recover estimated cost
      share contributions of $8,493 identified for amounts deemed payable.

      Recommendation No. 7: We recommend that USAID/Egypt document a review

4
  For Egyptian Association for Human Environmental Development and Al-Nakib Center for
Training & Democracy, the estimates are based on an exchange rate of 5.75 Egyptian pounds to
1 U.S. dollar, as stated in the agreements. For New Horizon Association for Social Development,
the estimate is based on an exchange rate of 5.7 Egyptian pounds to 1 U.S. dollar as of the date
of the agreement modification establishing the cost share requirement.


                                                                                               21
   of the democracy and governance agreements’ financial information to determine
   if appropriate cost share contributions have been made and document a plan to
   recover any outstanding contributions.

USAID/Egypt Should Obtain Waivers
for Participant Training

 Summary: Automated Directives System 253, Training for Development, documents
 the requirements for USAID-sponsored training activities conducted outside the United
 States. USAID/Egypt’s Mission Order 103-4, Clearances and Delegation of Authority,
 establishes a clearance and approval process for waivers. USAID/Egypt’s Office of
 Democracy and Governance did not obtain appropriate approvals for waivers for 40
 Egyptian participants to attend USAID-sponsored training events. The technical
 representative did not forward the waiver for proper approval because the
 representative did not follow guidance and the instruction from the training division. As
 a result, USAID/Egypt could not ensure the participants’ commitment to the $1.4 million
 program or enforce obligatory repayment of training funds if trainees did not return to
 Egypt.

ADS 253, Training for Development, documents the requirements for USAID-sponsored
learning activities, including those conducted outside the United States. Requirements
include an agreement among participants, the mission, and other parties describing
specific responsibilities for achieving USAID training objectives.           In addition,
USAID/Egypt’s Mission Order 103-4, Clearances and Delegation of Authority, requires a
technical officer to make waiver requests that should be cleared by several USAID
offices and approved by the mission director. As such, the technical office director,
program office director, legal adviser, and deputy director are responsible for clearing
the document, while the mission director is responsible for approving the document.

USAID/Egypt’s Office of Democracy and Governance provided training to foreign
nationals to acquire knowledge, skills, or information for their professional or technical
enhancement that included a program designed to integrate international standards of
investigative reporting customized and practiced in the Arab world. According to
managers for the International Center for Journalists, participants refused to sign USAID
training forms when the implementer paid for 40 Egyptian journalists to attend two
mentor training programs. According to the grantee, the participants refused to sign the
training forms because they believed that signing the forms would bind them
contractually to the U.S. Government.

As a condition to attend two training sessions held for 5 days and 3 days, respectively, in
Amman, Jordan, USAID/Egypt required each of the training participants to sign
agreements that documented the mission’s expectation and the participants’ agreement
to attend postevaluation training meetings. However, neither the agreement officer’s
technical representative nor the implementer acquired the critical USAID/Egypt
prerequisite training documents. More important, and without proper authorization, the
technical representative did not require the participants to sign training agreements for
personal commitment to the program or to actively participate in any organized
postevaluation activities. Rather, the agreement officer’s technical representative
prepared an internal memo to request a waiver of the requirements 1 day before the



                                                                                        22
participants traveled to Jordan for the first training session. However, the technical
representative did not submit the waiver requests for approval to any mission officials for
clearance or approval.

For the second training event, even though the technical representative had more than 2
weeks to obtain approval, the representative did not comply with mission waiver
guidelines. The technical representative prepared a waiver request memo for the
second training session. Although the staff person maintained a copy of the memo in
the grant files, the staff person never forwarded the memo to obtain appropriate mission
clearance and approval.

The staff person stated that the Office of Democracy and Governance sought guidance
for requests to waive requirements related to third-country training. The training director
stated that they did not have the authority to waive these requirements. Furthermore, on
multiple occasions, the training division requested that democracy and governance
participants complete the paperwork. This resulted in much communication between the
democracy and governance technical representative and the training director about why
their participants could not complete or should not complete the paperwork. Moreover,
the training director stated that the division emphasized that the memo was
documentation only for the democracy and governance files that would record the
reasons their participants could not complete the paperwork. However, the training
director stated that the division emphasized that this paperwork was documentation only
and would not be a waiver in and of itself. Despite the guidance given, the technical
representative prepared the waivers but never submitted them for clearance and approval.

The sensitivities of world events in the Middle East require training journalists to a have
a broad view to investigate and report on unbiased, factual, and relevant information. To
address this requirement, USAID/Egypt has demonstrated an obligatory commitment of
$1.4 million to provide resources to improve the organizational capabilities of civil society
organizations and to directly support media reform programs, a commitment that should
be reciprocated by the participants to whom it provides these valuable training
resources. Furthermore, for FY 2008, 9 of 25 USAID/Egypt performance indicators were
for training. Since many of the democracy and governance activities include training
components, it is conceivable that much of the training may be provided outside of
Egypt, given the Egyptian government’s reluctance to support the program. As a result,
USAID/Egypt could not ensure the participants’ commitment to the $1.4 million program or
enforce obligatory repayment of training funds if trainees did not return to Egypt.
Consequently, this audit makes the following recommendation:

   Recommendation No. 8: We recommend that USAID/Egypt develop a written
   plan to require its technical representatives to provide certifications about training
   participants’ noncompliance with documentation requirements, which would be
   reported to the mission director immediately to limit potential governmental
   liabilities.




                                                                                            23
USAID/Egypt Should Evaluate
Options for Unused Equipment

 Summary: Automated Directives System 324.5.4b, Post Procurement, Arrival and
 Disposition Records, requires missions to verify that commodities financed by the
 agency are used effectively. In one contract, the technical representative was aware
 that the contractor had purchased training equipment; however, the technical
 representative did not verify what equipment the contractor purchased and reported
 to USAID/Egypt. Consequently, training equipment valued at nearly $19,000 sat idle
 in an unfinished facility in poor storage conditions for more than 15 months. This
 occurred because the technical representative’s monitoring was weak. When
 beneficiaries do not use equipment provided for its intended purposes, this inaction
 results in waste and abuse of resources that could be put to better use elsewhere.

ADS 324.5.4b, Post Procurement, Arrival and Disposition Records, requires missions to
verify that commodities financed by USAID are being effectively used in an activity, and
if not, that the commodities are transferred to other activities.

In one contract, USAID/Egypt did not verify that commodities were being used effectively
for one of its activities. Specifically, USAID/Egypt’s contractor, Management Sciences
International, entered into an agreement with an Egyptian newspaper, Dar Akhbar El-
Yom, in May 2007 to provide technical training to develop its media training center as
well as to provide for media equipment and commodities. This assistance included
financial assistance for purchasing equipment, software, and training and instructional
materials, which would be discussed and approved by both parties in the implementation
phase with USAID review and approval.




Photographs of stored media lab equipment (a stored precision balance and a porosity tester) sitting
      idle in poor storage conditions. (Regional Inspector General/Cairo, February 2, 2009.)

Although the contractor provided about $19,000 in media equipment for a training center,
the newspaper company did not use the equipment. A contractor provided the equipment
to the company for a media lab that was to be used to train media professionals using new
technologies. In fact, the company placed the equipment in opened boxes for more than
15 months in a training room that was under construction. The unfinished room was
planned to be a media training room that would be completed after other resources
became available. In spite of the value of the equipment stored, the company did not have
an access log to provide minimal protection and safeguard the contents of the room. As


                                                                                                 24
illustrated in table 4, the commodities included state-of-the-art technical equipment to
improve newsprint quality that was to be used by engineers and technical staff.

Table 4. Equipment Not Being Used by the Media Training Center

                  Item                              Unit Price         Quantity         Total
 Porosity Tester for Paper                                  $4,605       1                $4,605
 Copier                                                     $3,637       1                $3,637
 Semi-Pro Camera                                            $3,290       1                $3,290
 Reporter Camera                                              $486       5                $2,430
 Portable Electronic Precision Balance                      $1,995       1                $1,995
 Lens                                                       $1,370       1                $1,370
 TV (34")                                                   $1,000       1                $1,000
 DVD Player Recorder                                          $387       1                  $387
 Scanner                                                       $90       1                    $90
 TOTAL                                                                                   $18,804




       Photographs of five digital cameras sitting idle in a storage room under construction.
                      (Regional Inspector General/Cairo, February 2, 2009.)

The contractor provided this equipment based on a subcontractor’s needs assessment
for a specialized training room. However, the contractor stated that it did not necessarily
mean that the subrecipient knew how to use the specialized equipment. Consequently,
the equipment was not being used for its intended training purposes, unbeknownst to the
USAID/Egypt technical representative responsible for overseeing the project.

This occurred because the technical representative’s monitoring of contractor’s activities
was weak. Although the technical representative was aware that the contractor had
purchased the equipment, the staff person did not verify the use of equipment at the
training center with what the contractor had reported to USAID/Egypt. The technical
representative stated that managing numerous grants and this contract as well as
reviewing technical evaluations for new grants under the civil society direct grants
program limited the staff person from conducting site visits to observe activities or
validate reported data. As a result, the technical representative did not take any
corrective action as thousands of dollars worth of media equipment sat idle.

USAID/Egypt spends thousands of dollars to purchase equipment to be used for training
and to upgrade outdated equipment in activities that its contractors and grantees



                                                                                                25
conduct. However, when beneficiaries do not use equipment provided for its intended
purposes, this inaction results in waste and abuse of resources that could be put to
better use elsewhere. Consequently, recommendation no. 2 addresses the technical
representative’s weak monitoring. This audit also makes the following recommendation
to ensure that USAID funds are put to better use.

   Recommendation No. 9: We recommend that USAID/Egypt explore and
   document possibilities to recover the unused equipment and put it to immediate
   and better use within 15 days.

USAID/Egypt Should Ensure
Technical Representative
Requirements Are Met

 Summary: Automated Directives System 458.3.5.5, Federal Acquisition Certification
 Programs, requires technical staff to complete mandatory acquisition and assistance
 courses for certification within 6 months of being appointed as a technical
 representative. In addition, Automated Directives System 303.3.14, Designation of the
 Agreement Officer’s Technical Representative, states that agreement officers must use
 a designation letter to authorize technical and administrative oversight of an award.
 Although USAID provides clear guidance on technical representative responsibilities,
 the Democracy and Governance Office director did not receive the mandatory
 acquisition and assistance certification to be a technical representative. In addition,
 from June to December 2007, neither the office director nor another democracy and
 governance staff person had designation letters authorizing management of a USAID
 award. This occurred because staff training and staff designations were not
 management priorities. As a result, some technical representatives exercised
 unauthorized administrative approvals to expend USAID funds.

USAID has documented requirements for its technical representatives in guidance in two
ADS sections. ADS 458.3.5.5, Federal Acquisition Certification Programs, requires a
technical representative to complete mandatory acquisition and assistance courses for
certification within 6 months of being appointed as a technical representative. In
addition, ADS 303.3.14, Designation of the Agreement Officer’s Technical
Representative, requires the agreement officer to use a designation letter to define the
scope of the technical representative’s responsibilities. The designation letters authorize
technical and administrative oversight of an award that includes monitoring, verifying,
and recommending changes to the agreement, as well as administratively approving
financial payments of USAID funds, if required. If a technical representative cannot fulfill
his or her responsibilities, the representative should notify the agreement officer to
ensure the timely designation of a successor.

Of the seven technical representatives managing the 10 direct grants program
agreements reviewed, one did not receive the mandatory acquisition and assistance
training to be certified. In fact, from June to December 2007, the office director, as a
technical representative, was not certified by or given a designation letter from the
agreement officer, although one of the office director’s responsibilities is to manage
grants and oversee the entire democracy and governance portfolio. Another democracy




                                                                                         26
and governance staff member also did not have a designation letter from June to
December 2007 to authorize their management of an award valued at $618,000.

According to the director of USAID/Egypt’s Office of Democracy and Governance,
management oversight for certification did not occur because the staff person did not
see the importance of personal certification. Moreover, the director stated that the office
requested the agreement officer to delegate a replacement technical representative after
the prior technical representative departed post. However, the Democracy and
Governance Office did not follow up and did not retain any documentation of formal
requests for a replacement designee. Consequently, the office director and another
democracy and governance staff member managed the award together without proper
delegation of authority for about 7 months.         The democracy and governance
management did not provide formal written guidance for circumstances that would
warrant notifying the agreement officer of changes in staff and redelegation of authority
over a specific agreement.

Without proper training, technical representatives lack the knowledge about some of the
requirements for overseeing the implementation of a USAID agreement. Furthermore, in
the absence of a binding designation letter, a USAID technical representative may
exercise unauthorized administrative approval of payments, and technically does not
have the authority to monitor activities or to request revisions to agreements. This
unauthorized approval exposes the agency to increased risks of both serious disputes
and legal action that compete for limited Agency resources, which otherwise would be
put to better use. Consequently, this audit makes the following recommendation:

   Recommendation No. 10: We recommend that USAID/Egypt document a review
   of authorizing designation letters for its technical representatives to ensure that
   staff have appropriate authority to manage agreements and administratively
   approve financial payments.




                                                                                         27
EVALUATION OF
MANAGEMENT COMMENTS
In its response to the draft report, USAID/Egypt’s Democracy and Governance Director
generally agreed with all 10 recommendations.             However, for two of the
recommendations, USAID/Egypt Mission officials did not agree with the wording of the
recommendations, but agreed with the spirit and intent of the corrective actions.
Management decisions have been made on the 10 recommendations in this report, and
the mission has taken final action on 9 of the recommendations. Although the mission
has reached a management decision on recommendation no. 8, final action will not be
taken until USAID/Egypt publishes a mission order to address participant training issues.
An evaluation of the management comments for each recommendation is discussed
below.

In response to recommendation nos. 1 and 5, USAID/Egypt’s Office of Democracy and
Governance agreed with the recommendations to develop and document training plans
for assistance recipients and to develop a checklist to document management reviews.
In May 2009, USAID/Egypt awarded a contract to Save the Children Federation, Inc., to
provide grant management support services, and to specifically provide additional
technical assistance and training to the democracy and governance civil society
grantees and develop a standardized checklist to assist mission staff in monitoring
program activities and progress.

To address recommendation no. 2, USAID/Egypt’s Office of Democracy and
Governance generally agreed with the recommendation and used the draft audit report
as a review tool to facilitate discussions about staff responsibilities as agreement or
contracting officer’s technical representatives. Although the mission did not agree with
the wording of the recommendation to retrain its staff, the democracy and governance
office director reallocated office responsibilities to ensure that grant and contract
management was equitably divided among staff. Although inadequate oversight may
have been the result of workload for some staff, several of the technical representatives
stated they were unaware of some of their primary responsibilities such as monitoring
antiterrorism measures and cost share requirements. By reviewing and dividing some of
the democracy and governance staff responsibilities, mission officials believe that these
actions will reduce management vulnerabilities.

In response to recommendation no. 3, USAID/Egypt agreed with the recommendation to
review its programs to determine whether a mission order on antiterrorism measures
would mitigate mission risks. Consequently, on July 1, 2009, USAID/Egypt issued a
mission order on antiterrorism procedures. The mission order provides guidance on
conducting risk assessments to reduce the risk of the mission’s assistance inadvertently
benefiting terrorist groups.

To address recommendation no. 4, USAID/Egypt generally agreed with the
recommendation to document and provide training to implementers on USAID’s
antiterrorism measures. USAID/Egypt’s democracy and governance officials developed
a plan to provide specific written notification to its implementers about USAID



                                                                                      28
requirements to fulfill antiterrorism measures. Moreover, the office plans to host either
an in-house workshop on USAID’s antiterrorism measures or use periodic meetings to
discuss issues to ensure that implementers comply with requirements designed to
prevent terrorist financing. As an ongoing effort documented in the office’s contract for
grant management support services, the contractor will review many of the grantees’
actions to comply with specific USAID antiterrorism measures.

In response to recommendation no. 6, USAID/Egypt’s democracy and governance and
procurement officials agreed with the recommendation and reviewed the questioned cost
share contributions identified in the report. However, mission officials chose not to
recover any of the questioned costs because the officials believed that any recoveries
would not contribute to achieving program results and would be inconsistent with
agreement terms. Although mission officials believed that recovery of cost sharing
would be inconsistent with agreement terms, there are no provisions or clauses in any of
the three agreements that would prevent the mission from recovering the differences in
budgeted and actual cost share. In accordance with the audit recommendation and
Agency guidance, USAID and recipients should resolve issues regarding cost share
requirements. If these issues are not resolved satisfactorily, USAID may request
refunds for differences to cost share contribution requirements, even if an award has
expired or was terminated. However, the mission addressed the recommendation by
reviewing the questioned cost share contributions.

To address recommendation no. 7, USAID/Egypt’s democracy and governance officials
agreed with the recommendation and developed a plan to review implementers’ cost
share contributions on a monthly or quarterly basis, when financial reports are
submitted. In addition, the officials plan to require awardees to include a report on cost
share contributions in monthly financial reports. As part of their review, the office plans
to elevate any differences in cost share amounts to the attention of the mission’s
procurement office for resolution.

Regarding recommendation no. 8, USAID/Egypt agreed with the recommendation to
develop a written plan to certify that documentation requirements for participant training
are fulfilled. Democracy and governance officials expect the mission’s training staff to
finalize and issue a mission order on participant training within 6 months.

In response to recommendation no. 9, democracy and governance officials agreed with
the recommendation to explore and document opportunities to put unused equipment to
immediate and better use. As a result, staff visited the subimplementer on two
occasions in March and May 2009 to ensure that equipment was properly installed in
training rooms and used during training sessions.

To address recommendation no. 10, USAID/Egypt’s democracy and governance staff
agreed with the recommendation to review staff authorizations to manage agreements
and administratively approve financial payments. Based on this review, the mission’s
democracy and governance officials made adjustments to employees’ assignments and
ensured its technical representatives are properly designated.




                                                                                        29
                                                                           APPENDIX I



SCOPE AND METHODOLOGY
The Regional Inspector General/Cairo conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on an audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The purpose of this audit was to determine
whether USAID/Egypt’s democracy and governance activities achieved their intended
results and to evaluate the impact. We conducted the audit at USAID/Egypt located in
Cairo, Egypt, and visited implementing partners and direct grants program recipients in
Cairo, Helwan, Asuit, Minya, Bani Suef, Qalioubiya, and Giza from October 16, 2008,
through May 12, 2009.

The audit covered the period from October 1, 2007, through September 30, 2008. In
planning and performing the audit, we assessed management controls related to
management review of performance measures, indicators, and activities. Specifically,
we obtained an understanding of and evaluated USAID/Egypt’s 2008 Federal Managers’
Financial Integrity Act of 1982 assessment, Egypt’s 2008 Full Performance Plan and
Report, the oversight performed by contracting officer’s technical representatives and
agreement officer’s technical representatives, and data quality assessments.

We reviewed an evaluation and an independent assessment of the program and a prior
performance audit 5 related to this review. However, none of the findings from the prior
performance audit affected the areas we reviewed.

Our recommendations are based on systemic problems identified throughout our
samples, which were managed by 8 of 10 technical representatives working in
USAID/Egypt’s Democracy and Governance Office.

Methodology
To answer the audit objective, we met with and interviewed USAID/Egypt staff in the
mission’s Democracy and Governance Office to gain an understanding of the program
history and status and to determine the risks associated with the program. We also
interviewed implementing partners Management Sciences for Development, Inc.,
AECOM International Development, and Management Systems International, Inc.; and
10 grant recipients, subcontractors, subgrantees, beneficiaries, and Egyptian
government officials. We reviewed applicable laws and regulations and USAID policies
and procedures. Additionally, to determine progress toward the achievement of planned
goals, we reviewed documentation provided by the implementers and the mission,
including the 2008 work plans; implementers’ quarterly and annual reports; contracts,
cooperative agreements, grants, and subsequent modifications; performance
management plans; operational plans; site visit reports; contracting officer’s technical
representative and agreement officer’s technical representative files; and supporting
documentation, such as attendance sheets and published materials.

5
 USAID’s Office of Inspector General, Audit of USAID-Financed Democracy and Governance
Activities in Egypt (Audit Report No. 6-263-04-006-P), July 12, 2004.


                                                                                     30
                                                                             APPENDIX I



Specifically, we compared fiscal year (FY) 2007 targets for indicators outlined in the
agency’s performance report with actual figures reported for FY 2008. We also
compared the planned work outlined in the implementing partners’ contracts with the FY
2008 work plans to ensure consistency. We compared the work accomplished as
reported in the implementers’ quarterly and annual reports to a random sample of FY
2008 work plan activities. We also compared selected planned activities in the nine
grants and one cooperative agreement with the implementers’ and grantees’ final and
progress reports. We verified the activities by examining supporting records, such as
deliverables, attendance sheets, and subawards, for evidence that the activity had
achieved intended results.

Based on our assessment of the project’s risks and management controls, we reviewed
13 agreements valued at $62 million. Under the bilateral agreement between
USAID/Egypt and the Government of Egypt, we reviewed three contracts valued at $55
million that were active in FY 2008. With assistance from the director of USAID/Egypt’s
Office of Democracy and Governance Program, we judgmentally selected three of the
seven contracts, representing 45 percent of the dollar value of the agreements under the
bilateral program. One contract was selected from each of the three democracy and
governance program areas (rule of law and human rights, good governance, and civil
society).

We also judgmentally selected 10 of 80 awards (13 percent) valued at more than $7
million out of the total dollar value of the agreements in the direct grants program of $59
million. The 10 selected awards were either active or closed during FY 2008. We based
our selection on entity type:             U.S. or international organizations, Egyptian
nongovernmental organizations (NGOs), and Egyptian civil companies. Accordingly, we
selected our sample based on the following criteria:

   •   Two grants more than $1 million each that were awarded to multiple grantees
       from U.S. or international companies.
   •   Three grants more than $500,000 each awarded to multiple-grantee Egyptian
       NGOs.
   •   One grant less than $500,000 that was closed in FY 2008 awarded to a single-
       grantee Egyptian NGO.
   •   One grant less than $500,000 that was closed in FY 2008 awarded to a single-
       grantee Egyptian civil company.
   •   One grant more than $500,000 awarded to an Egyptian civil company.
   •   Two grants awarded to Egyptian civil companies that have received more than
       one grant from the program.

The 10 selected awards ranged from nearly $200,000 to $1.35 million. We also audited
the cost share contributions of $283,361 for the 10 assistance awards.

In answering the audit objective, we set specific thresholds for the democracy and
governance performance indicators, the bilateral program activities, and direct grants
program activities. For the performance indicators, we considered the planned target
“achieved” if it was met by at least 80 percent or exceeded. Indicators were judged to
have been “not achieved” if the mission met 79 percent or less of the planned target (see
appendix IV).



                                                                                        31
                                                                                APPENDIX I



For the bilateral program, we chose activities that were expected to be completed in
FY 2008; for the direct grants program, we reviewed activities for the life of the grant.
We judged activities to have been “achieved” if they were completed on time as planned,
completed later than planned but within the fiscal year, or were subject to minor scope
adjustments during the fiscal year. We judged activities to have been “not achieved” if
they were started but not completed within the fiscal year or if the implementer did not
start activities in the fiscal year. For activities or deliverables that were quantifiable, we
established a materiality threshold of 80 percent. If the implementer completed at least
80 percent, we concluded that the implementer “achieved” the activity. For activities that
had completed less than 80 percent, we concluded that the implementer had “not
achieved” its intended results (see appendix V).

The completion of activities directly correlates to desired results and subsequently to
impact. When measuring impact, the audit considered the achievement of results
measured by performance indicators. For the bilateral agreement activities and direct
grants program, the audit considered activities “achieved” during FY 2008. Specifically,
the audit determined the progress of each project toward the achievement of planned
activities. Furthermore, the audit assessed the impact of management controls on
USAID/Egypt’s management of the democracy and governance portfolio and
decisionmaking.




                                                                                           32
                                                                              APPENDIX II




MANAGEMENT COMMENTS
Memorandum

Date:           September 30, 2009

To:             RIG/Cairo, Jacqueline Bell

Thru:           USAID/Egypt Mission Director Hilda Arellano /s/

From:           USAID/Egypt Democracy and Governance (DG) Office Director, Kim Delaney

Subject:        Audit of USAID/Egypt’s Democracy and Governance Activities – Draft Audit
                Report No. 6-263-09-006-P Dated September 13, 2009

USAID/Egypt has reviewed the subject report and following are the Mission’s comments on the
report ten audit recommendations subsequently.

Audit Finding: USAID/Egypt Should Increase Management Oversight

•     Recommendation No. 1: We recommend that USAID/Egypt develop and document a
      training plan for assistance recipients to explain USAID rules, regulations, and
      expectations, prior to beginning activities.

         USAID/Egypt agrees with this recommendation, as it reflects current practice.
         USAID/Egypt uses a number of mechanisms to ensure that assistance recipients
         understand USAID rules, regulations and expectations both prior to beginning activities
         as recommended by the RIG as well as during the course of award implementation.

         Immediately following award of new assistance agreements, USAID/Egypt conducts a
         post-award conference including representatives of the awardee, the Procurement Office,
         the Financial Management Office, the Training Office and the Democracy and
         Governance (DG) Office. The post-award conference is used to explain USAID rules,
         regulations and expectations prior to beginning activities. Since July 2009, this
         conference also includes a representative from the Grant Management Support Services
         (GMSS) contract. The GMSS contract was awarded in May 2009 to provide technical
         assistance and training to Egyptian civil society grantees receiving awards as part of the
         DG program. A copy of the GMSS is available in the DG office and has been provided
         to the RIG.

         In addition to the post-award conference, DG grantees are also provided targeted
         technical assistance and training from the GMSS contract based on an individualized
         assessment of needs. DG AOTRs – in conjunction with Mission staff from the Financial
         Management, Regional Legal Advisor, Training, Program and Procurement Offices as

                                                                                         33
                                                                                         APPENDIX II


        appropriate – also provide ongoing support to awardees in complying with USAID rules,
        regulations and expectations. DG AOTRs are in touch with awardees on a regular basis
        to ensure that any questions about the award are addressed.

        In addition to the post-award conference and ongoing AOTR assistance, during the last
        two years, the Financial Management and Procurement Offices have been teaching a
        FAST course to the DG assistance recipients to help further train them on managing their
        awards, dealing with terrorism certifications, and other certifications and representations.
        This course also covers the Standard Provisions, along with other financial and
        procurement issues and lessons learned from the previous years. Documentation on this
        course including the course agenda and an attendance list has been provided to the RIG.

        If the DG office identifies a need for additional training or technical assistance to
        awardees during implementation, we will ensure that this need is met either through an
        in-house course such as FAST or through another mechanism.

        For the specific examples cited in this section of the audit report, the agreement with
        Environmental Quality International has been closed 6 , and the Arab Penal Reform
        Organization is now submitting quarterly progress reports in English rather than in
        Arabic. Copies of the quarterly reports are available in the DG office and have been
        provided to the RIG.

        In view of the above, the Mission believes that a management decision has been
        made and fully implemented, and therefore requests closure of Recommendation 1.

•   Recommendation No. 2: We recommend that USAID/Egypt develop and document a
    training plan to provide its democracy and governance staff with refresher training on how
    to effectively manage programs including contracting and financial management
    responsibilities.

        While USAID/Egypt does not agree with the wording of this recommendation, since it
        implies that the main reason that there was inadequate management oversight of DG
        activities was because DG staff were not properly trained, we agree with its spirit and
        have taken a number of actions to reduce management vulnerabilities in the office.

        As noted in the draft audit report, management vulnerabilities in the office were caused
        by excessive workload and competing priorities in the office. Specifically, the draft audit
        report states: “democracy and governance staff encountered numerous problems
        managing the program activities because of competing management priorities…each of




6
 This awardee did not countersign the agreement as requested by USAID, nor did it enter into a written agreement
with its subrecipient.

                                                                                                      34
                                                                        APPENDIX II


the eight contracting and agreement officers’ technical representatives oversaw multiple
agreements…Increasing the workload and complicating matters further in FY 2008, the
democracy and governance staff was also responsible for evaluating more than 200 new
proposals for the direct grants program because of increased program funding.”

In addition, in the May 20, 2009 response to the Statement of Facts, the DG office
informed the RIG that “since the inception of the direct grant program in 2005 the need to
dedicate additional management resources, whether by hiring more staff or contracting
with an intermediary organization to provide day-to-day management and monitoring of
the APS grants was identified as a medium risk in the annual Federal Managers’
Financial Integrity Act (FMFIA) and raised by the team as an implementation issue in
numerous Portfolio Reviews”.

The issue faced by the DG office in managing its portfolio related to the significant
increase in management units (from eight in FY 2005 to 87 in FY 2008 as noted in the
draft audit report), but without a concomitant increase in staffing. The number of grants
and contracts now managed by DG office has been reduced by more than 50%, resulting
in a much more reasonable workload. The allocation of responsibilities in the office was
reviewed in June 2009 as well to ensure that grant and contract management was
equitably divided among staff.

Although the issues surrounding program management that were identified in the audit
were not primarily related to staff understanding of their responsibilities as COTRs or
AOTRs, the DG office has used its review of the audit report to ensure that all staff are
fully aware of their roles and to ensure that the number of staff is adequate for proper
management oversight.

The DG office will also formally review management arrangements on at least a
quarterly basis so that any concerns related to workload or oversight can be immediately
addressed. In addition, if the DG office identifies a specific need for staff training in any
area to ensure effective program management, the DG office will support staff in
receiving that training. These actions were discussed with DG staff in a meeting on
September 17th, and documented in a message to all staff on October 16th. A copy of this
message has been shared with the RIG.

In view of the above, the Mission believes that a management decision has been
made and fully implemented, thus, requests closure of Recommendation 2 upon
final report issuance.




                                                                                   35
                                                                             APPENDIX II


Audit Finding: USAID/Egypt award recipients should ensure antiterrorism measures are
conducted.

•   Recommendation No. 3: We recommend that USAID/Egypt document a review of its
    programs to determine whether a mission-wide order on antiterrorism measures would
    help to mitigate the mission’s risk of inadvertently providing financing to terrorist
    organizations or individuals associated with terrorism.

    USAID/Egypt agrees with this recommendation, as it is consistent with the Agency-wide
    approach to this issue.

    On July 1, 2009, USAID/Egypt issued a Mission Order on Anti-Terrorism Procedures,
    adopting interim guidance to reduce the risk of the Mission assistance inadvertently
    benefitting terrorist groups. A copy of the Mission Order has been provided to the RIG.
    This Mission Order was consistent with guidance provided to all Asia and Middle East
    operating units on conducting risk assessments to reduce the risk of USAID assistance
    inadvertently benefitting terrorist groups, their members, and/or supporters. This guidance is
    applicable to all funds managed by the Mission.

    Consistent with this guidance, the Mission conducted a review of each active program in July
    2009 to assess the risk of USAID financing benefitting terrorist organizations or individuals
    associated with terrorism. The results of this assessment confirmed that USAID/Egypt
    activities were all at low risk of benefitting terrorist organizations. Copies of these risk
    assessments are on file and a sample has been provided to the RIG.

    As a result of the issuance of the Mission Order and the procedures in place to
    periodically review all ongoing and new awards for the risk of providing financing to
    terrorists, Recommendation No. 3 should be closed upon final report issuance.


•   Recommendation No. 4: We recommend that USAID/Egypt document and provide
    training to the democracy and governance implementers on USAID’s antiterrorism
    measures.

    While USAID/Egypt does not agree with the specific wording of this recommendation since
    it implies that training would be sufficient to ensure that implementers complied with
    antiterrorism measures, we do agree with its spirit and have put in place a comprehensive
    approach to ensure that implementers both understand and continually comply with USAID
    requirements in this area.

    Specifically, an assessment of the risk of financing being provided to terrorists was
    conducted for each active democracy and governance award in July 2009. Based on this




                                                                                        36
                                                                                APPENDIX II


    review, the democracy and governance implementers were not considered to be at any higher
    risk than any other implementer for the provision of financing to terrorist organizations or
    individuals. As noted above, all USAID/Egypt programs were assessed to be at low risk for
    this to occur, primarily based on systems that the Government of Egypt has in place.

    In addition, as part of ongoing grant and contract management, USAID staff will ensure that
    contractors and grantees are aware of and complying with antiterrorism measures contained
    in their awards. USAID staff will inform the Procurement Office immediately of any cases
    of noncompliance. If it appears that grantees need additional support to understand USAID
    requirements in this area, we will consider other measures of informing them, including but
    not limited to sending a specific written notification of USAID expectations, hosting an in-
    house workshop on this issue or using periodic meetings of USAID democracy and
    governance implementers to discuss it.

    To provide additional support, under the GMSS contract described above, GMSS staff will
    review overall award compliance with Egyptian DG grantees, including that related to
    antiterrorism measures. GMSS has developed a checklist for compliance with grant
    provisions on terrorist financing, which has been provided to the RIG.

    For the specific cases outlined in the audit report, the Egyptian Decentralization Initiative is
    now including the antiterrorism clause in its subcontracts with Egyptian NGOs. Copies of
    these subcontracts are available and have been provided to the RIG. The other three awards
    which were cited in the audit report have all been closed.

    Based on the Mission’s assessment of risk in this area as well as the other preventive
    measures that are being taken, the Mission believes that Recommendation 4 has been
    addressed and requests closure upon final report issuance.



Audit Finding: USAID/Egypt should verify reported data

•   Recommendation No. 5: We recommend that USAID/Egypt develop a standardized
    checklist to document management reviews as a part of democracy and governance
    program assessments.

    USAID/Egypt agrees with this recommendation. As part of the GMSS contract, a
    standardized checklist has been developed to assess Egyptian grantee capacity to monitor and
    report on program progress. The GMSS contractor will provide tailored technical assistance
    to each grantee to improve their capacity to consistently and accurately report information to
    USAID. In addition to the monitoring and evaluation checklist, GMSS has developed an




                                                                                           37
                                                                             APPENDIX II


    organizational assessment tool to review overall organizational capacity as well as a branding
    and marking checklist. Copies of GMSS documents have been provided to the RIG.

    The GMSS contractor is also developing a monitoring system to collect and report
    information from all active Egyptian and U.S. civil society program awardees to USAID.
    This system will allow USAID to more easily review and verify program progress against
    planned activities and indicators. The GMSS contractor will also conduct periodic site visits
    of Egyptian grantees to supplement site visits made by USAID staff.

    In addition to the work of the GMSS contractor, USAID staff also monitor program
    performance on a regular basis as part of their AOTR / COTR responsibilities. In those cases
    where grantees or contractors are not adequately performing, the DG office will consult with
    the Procurement Office on any corrective actions to be taken. Mission-wide semi-annual
    program implementation reviews are also conducted to identify and address any significant
    management concerns.

    Based on the above mentioned corrective measures, the Mission believes that
    Recommendation 5 has been addressed and requests closure upon final report issuance.


Audit Finding: USAID/Egypt should monitor cost share contributions

•   Recommendation No. 6: We recommend that USAID/Egypt make a management decision
    on the questioned cost sharing and recover estimated cost share contributions of $8,493
    identified.

    USAID/Egypt DG and Procurement offices agree with this recommendation, and have
    already made a management decision on the questioned cost sharing identified in the RIG
    audit report. The management decision is that the cost share contributions of $8,493 should
    not be recovered.

    Recovering the estimated missing cost share contribution would not contribute to achieving
    program results, nor would it be consistent with the agreement terms. In the case of in-kind
    contributions of equipment use, it would be impossible to recover cost share. Under the cited
    agreements with the Egyptian Association for Human Environmental Development and the
    Al-Nakib Center for Training and Democracy, grantees were responsible for providing a cost
    share that would mainly cover customs, sales tax and social insurance contributions for their
    employees which were directly related to the program objectives. The cost share in the
    award with New Horizon Association for Social Development was an in-kind contribution of
    equipment. The agreements with these three organizations did not specify the source of the
    cost share. All cost share amounts were estimates and denominated in Egyptian pounds.




                                                                                        38
                                                                              APPENDIX II


    When these agreements were completed, all three organizations had covered all cash or in-
    kind contributions required for the implementation of all planned activities. The variations
    cited in the audit report were due to exchange rate fluctuations and/or changes in employee
    salary amounts for those cost share items that were pegged to a percentage of employee
    salaries, such as social insurance. This variance in specific cost share amount did not affect
    program implementation or the achievement of results.

    Therefore, USAID/Egypt determined not recover these estimated cost share amounts;
    thus, the Mission believes that Recommendation 6 should be closed upon final report
    issuance.



•   Recommendation No. 7: We recommend that USAID/Egypt document a review of the
    democracy and governance agreements’ financial information to determine if appropriate
    cost share contributions have been made and document a plan to recover any outstanding
    contributions.

    USAID/Egypt agrees with this recommendation. Following issuance of the Statement of
    Facts, USAID/Egypt has begun to require awardees to include information in their monthly
    financial reports on cost share contributions. As noted above, cost share contributions from
    Egyptian grantees mainly are comprised of the payment of social insurance for grantee staff,
    thus, does not have direct impact on achieving the grant activities. This is now being
    monitored on a monthly or quarterly basis when financial reports are submitted. A sample of
    regular grantee financial reports that show the cost share contribution have been provided to
    the RIG.

    If any variations from the original cost share amount are found that are not accounted for
    through exchange rate fluctuations and/or variation in the amount paid to grantee staff,
    USAID/Egypt will bring this to the attention of the Procurement Office, which can take any
    corrective actions it deems appropriate. A separate plan to recover outstanding contributions
    is therefore unnecessary at this time, but will be prepared if determined necessary by the
    Procurement Office on a case by case basis.

    Based on these actions, Recommendation 7 should be closed upon final report issuance.



Audit Finding: USAID/Egypt should obtain waivers for participant training

•   Recommendation No. 8: We recommend that USAID/Egypt develop a written plan to
    require its technical representatives to provide certifications about training participants’




                                                                                         39
                                                                              APPENDIX II


    noncompliance with documentation requirements, which would be reported to the mission
    director immediately to limit potential governmental liabilities.

    USAID/Egypt agrees with this recommendation. The Training Office plans to issue a new
    Mission Order once ADS 253 is reissued which will include third country training
    regulations. This is expected to happen within the next six months.

    For the specific example cited in the audit report where 40 Egyptian journalists did not sign
    Mission specific training forms before participating in eight days of training in Jordan, the
    award under which this occurred has closed. While ADS 253 does not require the
    completion of all cited forms for third country training, they were provided internally by the
    Mission as a safeguard to ensure that participants would adhere to their program, and to
    control problems which might occur while they are in training status.

    Although the DG office conducts an extensive amount of training (with over 11,000
    participants in FY 2008), we are unaware of any similar cases where this occurred.

    In light of the facts relayed above, this recommendation should be closed.


Audit Finding USAID/Egypt should evaluate options for unused equipment

•   Recommendation No. 9: We recommend that USAID/Egypt explore and document
    possibilities to recover the unused equipment and put it to immediate and better use within
    15 days.

    USAID/Egypt agrees with this recommendation, since it reflects actions that were taken
    more than four months ago.

    In the May 20, 2009 DG office response to the summary statement of audit findings on the
    DG Office performance audit, the following information was provided:

    “The CTO paid two site visits to the Akbar Training Center (March 3 and May 13, 2009) and
    ensured that the subject equipment is being used for training purposes. All cameras
    identified in the SOF on page 25 are being used to train photo journalists and are put back
    into their boxes as a precautionary measure to protect them. (Additional supporting
    documents including photos are available in the official files and has been provided to the
    RIG). The scanner and copier are now in use (photos are available in the official files and
    have been provided to the RIG) and the TV and DVD player are now installed in the training
    room. Porosity tester and precision balance has been utilized in training and Akhbar stated
    that the training they offer using this unique piece of equipment is earning them additional
    income. El Akhbar also shared supporting documents, including an invitation to a training
    course on May 24, 2009 using the subject equipment. (Supporting documentation available
    in official files and has been provided to the RIG.) During the site visit, CTO ensured that the




                                                                                         40
                                                                              APPENDIX II


    training center, which houses USAID funded equipment, has 24 hour security for the
    building. Moreover, the training room containing the computers, camera and the porosity
    tester, and precision balance is locked. After the site visit, the CTO sent an email to the
    director of the Akhbar training center to reiterate the importance of ensuring the equipment is
    utilized by the recipient for training and that it is properly stored and secured when not in
    use.”

    Based on this information, this recommendation should be closed upon final report
    issuance.



Audit Finding: USAID/Egypt should ensure technical representative requirements are met

•   Recommendation No. 10: We recommend that USAID/Egypt document a review of
    authorizing designation letters for its technical representatives to ensure that staff has
    appropriate authority to manage agreements and administratively approve financial
    payments.

    USAID/Egypt agrees with this recommendation. In June 2009, the DG office reviewed the
    assignment of COTR, AOTR, alternate COTR and alternate AOTR responsibilities in the
    office. A chart showing the assignment of COTR, AOTR and alternates that was completed
    in June was provided to the RIG. Based on this review, the DG office provided
    recommendations to the Procurement Office for adjusting the assignment of responsibilities.
    All current AOTRs, COTRs, and alternates have been formally designated by the
    Procurement Office through written designation letters. These letters form part of the official
    files and have been provided to the RIG.

    Any changes in designations will be made through a formal request to the Procurement
    Office.

    Based on these actions, this recommendation should be closed upon final audit report
    issuance.




                                                                                         41
                                                                                              APPENDIX III


                Bilateral and Direct Grants Program Implementers

 Bilateral Implementers
                                                                           Start       End
           Project                 Contractor           Contract No.       Date        Date        Cost
 Rule of Law and Human         Management
 Rights                        Sciences for            PFD-I-00-04-
 Family Justice Project        Development, Inc.       00175-00          Nov 05      Jul 10     $17,452,598
 Good Governance               AECOM
 Egyptian Decentralization     International           263-I-00-06-
 Initiative                    Development             00015-00          Apr 06      Apr 11     $21,973,546
 Civil Society                 Management
 Media Development             Systems                 263-I-00-06-
 Program                       International, Inc.     00008-00          Apr 06      Apr 11     $15,536,071

                                                                                     TOTAL     $54,962,215


 Civil Society Direct Grants Recipients
                                                                        Start       End           Total
  Direct Grants Recipient        Registration        Agreement No.      Date        Date       Obligations*
                             No agreement with
 International Center        Ministry of Foreign     263-G-00-06-
 for Journalists             Affairs                 00071-00          Aug 07      Jan 09       $1,350,061
                             Agreement with
                             Ministry of Foreign     263-G-00-06-
 Internews Network           Affairs                 00030-00          May 06      Apr 08       $1,200,000
 Environmental                                       263-A-00-07-
 Quality International       Civil company           00011-00          Feb 07      Aug 08       $588,650
 Arab Penal Reform                                   263-G-00-07-
 Organization                Civil company           00079-00          Aug 07      Aug 09       $957,588
                                                     263-G-00-06-
 The United Group            Civil company           00047-00          Jul 06      Jul 08       $271,320
 The Coptic Evangelical
 Organization for Social     Nongovernmental         263-G-00-05-
 Services                    organization            00060             Oct 05      Dec 08       $1,003,940
 Al-Nakib Center for
 Training and                Nongovernmental         263-G-00-07-
 Democracy                   organization            00020-00          Feb 07      Dec 07       $618,145
 New Horizon Association     Nongovernmental         263-G-00-05-
 for Social Development      organization            00061-00          Oct 05      Sep 08       $839,185
                                                     263-G-00-06-
 The Arab Office for Law     Civil company           00093-00          Sep 06      Sep 08       $350,912
 Egyptian Association for
 Human and
 Environmental               Nongovernmental         263-G-00-06-
 Development                 organization            00095-00          Sep 06      Sep 08        $192,171
                                                                                   TOTAL        $7,371,972
* Unaudited data provided by USAID/Egypt’s Democracy and Governance Office.




                                                                                                           42
                                                                                 APPENDIX IV


            Planned vs. Actual Indicators for Fiscal Year 2008

                                                                                     Audit
No.                          Indicator                         Target   Actual    Assessment
                 Rule of Law and Human Rights
      Number of U.S. Government-assisted courts with
1     improved case management                                  22       16       Not Achieved
      Number of justice sector personnel who received
2     U.S. Government training                                 2650     4605       Achieved
      Number of legal institutions and associations
3     supported by U.S. Government                              167      247       Achieved
      Number of people visiting U.S. Government-
      supported legal services centers serving low-
4     income and marginalized communities                        0      88,980     Achieved
      Annual number of positive modifications to
      legislation, regulations, or institutional policies to
      improve justice system made through U.S.
5     Government assistance                                      5        3       Not Achieved
      Number of public advocacy campaigns on human
6     rights supported by U.S. Government                        4        3       Not Achieved
      Number of key governmental and
      nongovernmental stakeholders trained in activities
7     related to violence against women                          0        0         Dropped
      Number of local NGOs receiving U.S. Government
      assistance to address violence against women or
8     children                                                   0        0        No Target
                        Good Governance
      Number of subnational government entities
      receiving U.S. Government assistance to increase
9     their annual own-source revenues                          104      55       Not Achieved
      Number of subnational government entities
      receiving U.S. Government assistance to improve
10    their performance                                         84       117       Achieved
      Number of individuals who received U.S.
      Government-assisted training, including
      management skills and fiscal management, to
      strengthen local government and/or
11    decentralization                                         5427     4,471      Achieved
12                                         Number of women      666      646       Achieved
13                                            Number of men    4761     3825       Achieved
      Number of laws or amendments promoting
      decentralization drafted with U.S. Government
14    assistance                                                 0        0        No Target
      Number of people affiliated with NGOs receiving
15    U.S. Government-supported anticorruption training          0       706       Achieved
      Number of U.S. Government-supported
16    anticorruption measures implemented                        0        0        No Target
                            Civil Society
      Number of civil society organizations using U.S.
      Government assistance to promote political
17    participation                                             50       63        Achieved




                                                                                           43
                                                                                   APPENDIX IV


                                                                                       Audit
                               Indicator                        Target    Actual    Assessment
       Number of civil society organizations using U.S.
       Government assistance to improve internal
 18    organizational capacity                                    61       69        Achieved
       Number of civil society organization advocacy
 19    campaigns supported by the U.S. Government                 15        0         Dropped
       Number of positive modifications to enabling
       legislation/regulation for civil society accomplished
 20    with U.S. Government assistance                             1        0       Not Achieved
       Number of U.S. Government-assisted civil society
       organizations that engage in advocacy and
 21    watchdog functions                                         45       62        Achieved
       Number of media outlets that received U.S.
       Government-supported training to promote
 22    financial sustainability                                   18       12       Not Achieved
       Number of journalists trained with U.S.
 23    Government assistance                                      950     1293       Achieved
       Number of media professionals (non-content
       providers, including media management personnel)
 24    trained with U.S. Government assistance                    323      140      Not Achieved
       Number of private and public media outlets that
       received U.S. Government-supported training to
 25    promote financial sustainability                            0       20        Achieved

Source: USAID/Egypt’s Fiscal Year 2008 Full Performance Plan and Report




                                                                                             44
                                                                                               APPENDIX V


                                           Planned Activities for Fiscal Year 2008

                                                                                      Percentage
 Democracy and Governance         Planned                    Percentage      Not         Not                       Percentage
      Program Component           Activities    Achieved      Achieved     Achieved    Achieved         Dropped     Dropped
           Rule of Law
        and Human Rights
Family Justice Project                43           30           70%          11          25%              2             5%
        Good Governance
Egyptian Decentralization
Initiative                            22            7           32%          15          68%              0             0%
           Civil Society
Media Development Program             26            9           35%          17          65%              0             0%
Civil Society Direct Grants
Program                               91           73           80%          18          20%              0             0%
Total                                182          119           65%          61          34%              2             1%


                      Civil Society Direct Grants Program Planned Activities for Fiscal Year 2008

                                                                                                          Percentage
                                                Planned                    Percentage      Not               Not
                      Recipient                 Activities    Achieved      Achieved     Achieved          Achieved
        Al-Nakib Center for Training and
        Democracy                                        7             6          86%              1              14%
        Egyptian Association for Human
        and Environmental Development                    7             4          57%              3              43%
        The Coptic Evangelical
        Organization for Social Services                13            10          77%              3              23%
        New Horizon Association for
        Social Development                              22            20          91%              2               9%
        Environmental Quality
        International                                    8            8           100%             0               0%
        Internews Network                                7            5            71%             2              29%
        The United Group                                11            8            73%             3              27%
        Arab Penal Reform Organization 7                 4            3            75%             1              25%
        The Arab Office for Law                          6            4            67%             2              33%
        International Center for
        Journalists 8                                    6             5          83%              1              17%
        Total                                           91            73          80%              18             20%




            7
                Activities were ongoing.
            8
                Activities were ongoing.


                                                                                                              45
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
